              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                          FEB 2 8 2013
Memorandum

To:            MichaelS. Black
               Director, Bureau of Indian Affairs

From:          Kimberly Elmore ~b..e,J)~ ~
               Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:       Office oflnspector General's Independent Report on the Bureau oflndian
               Affairs' Fiscal Year 2012 Accounting and Performance Summary Review
               Reports for the Office of National Drug Control Policy
               Report No. ZZ-IN-BIA-0002-2013

       The Office oflnspector General (OIG) has reviewed two fiscal year (FY) reports
prepared by the Bureau oflndian Affairs (BIA) for the Office of National Drug Control Policy
(ONDCP). BIA management is responsible for these reports.

         The reports, FY 2012's "Accounting Report" (Attachment 1) and "Performance
Summary Review Report" (Attachment 2), are presented in place of the "Detailed Accounting
Submission and Performance Summary Report" required by the ONDCP Circular titled "Drug
Control Accounting," dated May 1, 2007. The Circular allows this alternative reporting method
when an agency's prior-year drug-control obligations are less than $50 million and full
compliance with the Circular constitutes an unreasonable burden. BIA management has asserted
that it met these criteria in FY 2012.

       We reviewed this assertion in accordance with the Generally Accepted Government
Auditing Standards applicable to attestations that incorporate the standards established by the
American Institute of Certified Public Accountants. A review is substantially less in scope than
an examination, which expresses an opinion on management's assertions. Accordingly, we do
not express such an opinion.

       We limited our review to the assertion that full compliance with the requirements of the
Circular constituted an unreasonable burden and that BIA's drug control obligations were under
$50 million. Our objective was not to express-and we do not express--opinions or conclusions
on whether the reports were fairly stated. Based on our review, nothing came to our attention that
caused us to believe that BIA management had not made its assertion in accordance with the
Circular.

      This report is intended solely for the information of and use by BIA and ONDCP
management, as well as the U.S. Congress. It should not be used by anyone other than these




                        Office of Audits, Inspections, and Evaluations I Washington, DC
parties. The distribution of our report, however, is not limited. If you have any comments or
questions regarding this report, please do not hesitate to contact me at 202-208-5512.

Attachments (2)




                                              " 2
                      United States Department of the Interior                             Attachment 1
                                      BUREAU OF INDIAN AFFAIRS
                                            Washington, D.C. 20240
IN REPLY REFER TO:                             FEB 12 2013



    Memorandum

   To:               Kimberly Elmore
                     Assistant Inspector General for Audits, Inspections and Evaluations

   From:             Acting Deputy Assistant Secretary-   Management~l>n
   Subject:          Office oflnspector General's Independent Report on the Office OfNational Drug
                     Control Policy (ONDCP) 2012 Accounting Report - Indian Affairs

   Attached for your review and response is the ONDCP 2012 Accounting Report for Indian
   Affairs. As required by the ONDCP Circular: Drug Control Accounting dated May 1, 2007,
   the report show that Indian Affairs prior-year drug control obligations are less than $50 million
   and is in full compliance with the requirements of the Circular and constitutes an unreasonable
   burden.

   If you have any questions, please contact the Office. of Justice Services, Charles Addington,
   Associate Director at 202-208-5787.



   Attachment
       ONDCP 2012 Accounting Report - Indian Affairs

      Resource Summary

       Prior Year Drug Control Obligations                                           FY 2012
       Function: Prevention                                                             (miUiou)


       J33         Special Initiatives                                                  9,984
                   Substance Abuse - Meth Initiative                                    9,984

                   Total FTE (Direct ONLY)                                               60

       J34         Indian Police Academy                                                 505
                   Total ALL Functions                                                 10,489


      Full compliance with this Circular constitutes an unreasonable reporting burden. Obligations
      reported under this section constitute the statutorily required detailed accounting.




Acting Deputy Assistant Secretary - Management
                                                                                         Attachment 2




                                             FY2012
                     ONDCP Performance Summary Review

MISSION

The Bureau of Indian Affairs (BIA) mission is to enhance the quality of life, to promote
economic opportunity, and to carry out the re$ponsibility to protect and improve the trust assets
of American Indians, Indian tribes, and Alaskan Natives.

The BIA's Office of Justice Services (OJS) directly operates or funds law enforcement, tribal
courts, and detention facilities on Federal Indian lands. The mission of the Office of Justice
Services is to uphold tribal sovereignty and customs and provide for the safety of Indian
communities by ensuring the protection of life and property, enforcing laws, maintaining justice
and order, and by confming American Indian offenders in safe, secure, and humane
environments.



METHODOLOGY
The Drug Initiative is funded within the Law Enforcement Sub activity. Eight areas comprise the
Law     Enforcement       sub    activity: Criminal    Investigations     and   Police     Services,
Detention/Corrections, Inspections/Internal Affairs, Law Enforcement Special Initiatives, the
Indian Police Academy, Tribal Justice Support, Program Management, and Facilities Operations
and Maintenance. Ensuring the safety of tribal communities is at the heart of Indian Affairs' law
enforcement mission and fully supports the Secretary's commitment to the protection of Indian
Country. Within BIA's Law Enforcement sub activity, funding is provided for initiatives
involving drug enforcement. The Special Initiatives line allows the Office of Justice Services to
track funding for focused strategic efforts directed to a specific purpose.




                                                  1
    Table 1: Fiscal Year {FY) Budget authorizations
                                                                       FY2011         FY2012         FY 2013       FY 2014*




 * FY2014 budget request is pending Passback
1
 FTE's in previous Perfornumce Summary Review's did not include; School Resource Officers, Intelligence Analysts,
Victim/Witness Specialists or Administrative Stuff.
In FY2014 an internal trunsfer of the Victim Witness allocation to the Tribal Justice Support program will be requested.


Substance Abuse- Drug Initiative ($10,000,000)

Indian Country is faced with increased drug trafficking and drug crime (including the ongoing
methamphetamine crisis in Indian country) that is a major contributor to violent crime and has
serious health and economic impacts on Indian communities. The abuse of prescription drugs is
quickly becoming a crisis in Indian Country along with the illegal processes used in obtaining
these drugs. The FY 2013 funding will continue to combat the highly visible drug crisis through
the expansion of the drug program and training for Bureau and Tribal officers.

Drug Enforcement - $8,000,000 of this funding is for direct Drug Enforcement efforts. Drug
Enforcement Officers (DEOs) will manage investigations and implement interdiction programs
necessary to reduce the effects of drugs and drug related crime in Indian country. The DEOs will
perform activities that include the eradication of marijuana cultivations, conducting complex
criminal investigations, carrying out surveillance of criminals, infiltrating drug trafficking
networks, developing and implementing undercover techniques, executing search warrants,
confiscating illegal drug supplies, collecting and processing evidence, writing highly detailed
technical reports, giving sworn testimony in court, developing evidence to seize financial assets
gained from the proceeds of drug trafficking, and establishing and maintaining cooperative
relationships with other Federal, State, local, and tribal law enforcement organizations in the
fight on drugs.




                                                             2
With 100+ schools servicing Indian Country, the School Resource Officer (SRO) program has
become an important part of the OJS drug initiative. This program funds 18 SRO positions
throughout Indian Country. The program provides for interaction between officers and students
in the student's environment. SRO's provide instruction in drug awareness and gang resistance
using a structured curriculum. SRO positions serve as the initial contact with students and
educate them on the negative aspects of illegal drug use and gang activity. These positions play
a key role in providing visual deterrent and identifying potential threats of school violence.

Intellligence - $500,000 is allocated for the Intelligence group which is tasked with intelligence
gathering, reporting and investigative support, which is needed in all parts of Indian Country to
assist in drug investigations. With this component, national, regional, and local threat
assessments can be established and presented to law enforcement agencies working on or near
Indian country. This program will allow the production of real time data on trends, threats, and
analysis of drug trafficking and distribution throughout most of Indian country, allowing
investigators to have advance information and to focus on law enforcement issues.

Victim/Witness Services - $1,000,000 is allocated for the Victim/Witness Services (VWS)
program which provides needed support to cooperating witnesses and victims of violent and drug
crimes. The protection of witnesses and victims in tribal court systems is a major issue when
drug investigations are conducted. VWS can provide this needed attention to victims and
witnesses at the local level when other resources are not available. Additionally, VWS staff will
also provide guidance to Tribes in developing their own VWS programs. VWS will also include
an effort to assess existing victim/witness programs and expand this program to all BIA law
enforcement districts.

Indian Police Academy ($505,050)

A total of $505,050 is allocated for basic and advanced training through the Indian Police
Academy located at the Department of Homeland Security's Federal Law Enforcement Training
Center in Artesia, New Mexico and training outreach sites. Along with basic police, criminal
investigation, and detention coursework, the Academy offers numerous advanced training
courses. In FY 2013, the program will continue to provide drug training programs such as basic
drug training; advanced drug training, vehicle interdiction and issues drug endangered children.
With an increased focus on training and awareness, additional full-time drug enforcement agents
will be better prepared to do full investigations, successful interdiction, develop task forces,
increase the number of drug seizures, and effect a substantial reduction in drug trafficking.




                                               3
 PERFORMANCE INTRODUCTION

In 2012, the Bureau of Indian Affairs (BIA) continued to see a wide range of drug activity on
Indian lands throughout the United States. Information provided in this report reflects
investigative activity on simple investigations as well as complex, conspiracy type,
investigations. BIA DDE agents continue to refine their investigative talents leading to highly
technical investigations such as court ordered Title III wire intercepts, Organized Crime Drug
Enforcement Task Forces (OCDETF) cases, and Racketeer Influenced and Corrupt Organization
(RICO) cases.

Aggressive marijuana eradication operations conducted in the Northeast part of the United States
resulted in a successful 83% decrease in marijuana cultivation in this region for FY12. Indian
Country saw an increase of 134% of drug cases opened and an increase of 281% drug related
arrests made in FY12. This is the result of the success BIA OJS has had in forming partnerships
and providing technical assistance and training to Indian Country law enforcement.

This report includes performance measures, targets, and achievements for the latest years for
which data is available. Data was gathered and verified from the Office of Justice Services
(OJS) database and the Division of Drug Enforcement (DDE) case log.


Performance Measure One: Number ofPatrol Officers Receiving Drug Training

In 2012, the BIA Indian Police Academy had the following training numbers. Eighty-one (81)
students graduated Basic Police Training with an introduction to drug awareness and
investigations. Ninety-five (95) students graduated Advanced Drug Training. Fifty-nine (59)
students graduated Basic Criminal Investigator Training with an introduction to drug awareness
and investigations. Twenty-four (24) students graduated Basic Drug Training. Twenty-five (25)
students graduated Drug-Enforcement In-Service Training. Total law enforcement officers that
received drug training in FY2012 was 284.


Table 2: Patrol Officers Trained by Fiscal Year




* In. 2011 advanced drug training was reassigned to the Indian Police Academy.




                                                      4
Figure 1: Patrol Officers Trained bv Fiscal Year



     400
     350
     300
     250
     200
                                                                       I• Achieved I
     150
     100
       so
        0
               2009         2010          2011          2012



Performance Measure Two: Percent increase in drug cases worked

The number of drug cases reported and tracked is gleaned from data provided on monthly drug
statistical reports provided by BIA and Tribal Police programs and from the BIA-DDE case log.
Data provided by BIA and Tribal Police programs are entered into the OJS drug database system.

The following information documents the cases worked by all Indian country law enforcement
programs (BIA-DDE, BIA, and Tribal). These figures demonstrate an overall increase of
approximately 134% in drug cases worked in Indian country in FY 2012.


Table 3: Total number of drug cases worked bv Fiscal Year




                                              5
 Figure 2: Total number of drug cases worked bv Fiscal Year




                                                                             • Proposed
      1000                                                                   • Achieved


       500

           0
                2008        2009      ·2010        2011       2012



The following information documents the cases worked by the BIA-DDE only. These figures
demonstrate an overall decrease of approximately 33% in cases worked in FY 2012 due
primarily in a change in focus of providing direct technical assistance to the BIA and Tribal
police departments, which resulted in 160% increase in their numbers.


Table 4: Number of drug cases worked bv DDE onlv by Fiscal Year




                                               6
Figure 3: Number of drug cases worked by DDE only by Fiscal Year




     500

     400

     300                                                                       • Proposed
                                                                               • Achieved
     200

     100

        0
             2008       2009       2010         2011         2012



The following information documents the cases worked as reported by BIA and Tribal police
departments only. These figures demonstrate an overall increase of approximately 160% in
cases worked in FY 2012.

                                                                           .
Table 5: Nwnber of' drug cases worlced bv BIA   a~1d   Tribal Police Departments bv Fiscal Year




                                            7
 Figure 4: NlUnber of drug cases wol'ked by BIA w1d Tribal Police Departments bv Fiscal
 Year



       1800 ~~~;;;;:
       1600
       1400
            I~!~"'?~R-i'~IQi
       1200
       1000
                                                                              •Proposed
        800
                                                                              •Achieved
        600
        400
        200
            0
                  2008        2009        2010          2011       2012

* The preceding information was obtainedfrom the Lotus Notes drug database.


The DDE has historically experienced challenges gathering accurate data using systems
developed by the BIA IT division or its contractors. Information gathered for this report and the
subsequent verification process have highlighted the need for an automated data collection
system. DDE has developing a process to verify tribal drug data submissions, which are
reflected during this reporting period to ensure accurate data submission.

Drug Enforcement Agents are responsible for managing drug investigations and providing direct
technical assistance to programs necessary to reduce the effects of drugs and drug-related crime
in Indian Country. Through this technical assistance and partnership formed there has been a
constant increase in arrests. In FY 2012, arrest increased by over 281% over the 2011 figures.

Table 6: Perce11t i11crease in llumber of drug related arrests bv Fiscal Year




                                                    8
Figure 5: Percent Increase in number o(drug re/aJed a"ests bv Fiscal Year




                                                                                • Proposed
                                                                                •Achieved




                 2008         2009         2010         2011         2012

* The preceding information was obtainedfrom the Lotus Notes drug database.


Performance Measure Three: Percent increase in DDE closure rate

DDE opened 394 cases in FY12, 202 of which were closed by arrest, indictment, or referral to
another agency for a 51.26 percent closure rate. Open cases remain under active investigation.
Of 394 cases opened, 357 investigations, or 90.6 percent of our investigations, occurred within
reservation boundaries or upon trust/allotted lands. The remaining 9.4 percent of investigations
held a direct nexus to Indian country. BIA is working on the data to report the closure rate for all
drug case submission in FY2013.


Table 7: Closure rate as compared to baseline




                                                    9
Performance Measure Four: Increase in the amount of drugs seized

The following information documents drug seizures accomplished by the combined efforts of
BIA-DDE, BIA and Tribal Police programs. These figures demonstrate an overall decrease of
approximately 55% in total drugs seized by Indian Country Law Enforcement Programs in FY
2012.

BIA-DDE management reports marijuana eradication numbers represented 95% ofFY2011 total
drugs seized. FY12 recorded an 83% decrease in plants seized due to the aggressive eradication
efforts made in the Northwest Region of the United States in FYll. Considering DDE's success
in reducing marijuana cultivation in this region additional operations are being implemented for
FY13 in other regions of the US.



Table 8: Percent increase in amount of drugs seized bv Fiscal Year



                                                      ', :_· ''2_9_11 ._
                                                                -· -              ~     ~ 011
                                                                                                         -    - ~1..-    ·. ., '
                                                                                                     .;n-,!-"' !ol • ' ' 2012      •
                                                               l.o/c                    - -~       ···•·J%
                                                                                                   I •
                                                                                                               .•~ ....,«.,., .. ~·
                                                          b . 2  ..:.".,.,...-"       Acb.iev~d ..,~ ·,_':i.A.. · · ~C:Weved
                                                          "" ro""""'...               .. '      ·;-·or       ·a;J:4J.I'I"""4   -~ '     -.
 FY 2009, 10, 11,
12 achieved totals                                                                                                                41,231
                     287,099    292,840      44,759          45,654                    90,772                  91,697
  represented in
    _pounds:
                                                                                                                                      21.95
Cocaine Powder        178.62    182.19       106.53            108.7                     7.71                    7.78
                                                                                                                                      2.08
 Cocaine Crack         .66        .67         8.28               8.4                      .43                     .43
                                                                                                                                      6.66
     Heroin            .48        .48         .08               .081                      .02                     .02
                                                                                                                                       .92
MDMA (Ecstasy)         .03        .03         .15               .153                     .22                      .22
                                                                                                                                      17.39
 Meth Crystal         13 .75     14.02       40.87              41.6                     14.0                    14.1
                                                                                                                                      3.65
 MethPowder           4.55       4.64         .07                .74                     .14                      .14
  Processed                                                                                                                           3,857
                     85.49\      87.1        4,159            4,242                     2,889                   2,917
  Marijuana
 Prescription                                                                                                                         602.3
                      13.1       13.3        52.1               53.2                     14.9                    15.0
 Drugs Seized
 Other Drugs                                                                                                                          261.7
                       .5         .5          1.8                1.9                     2.7                     2.7
    Seized
 Marijuana(#                                                                                                                      36,457
                     286,802   292,538      40,390           41,198                    87,843                  88,721
 Plants = lbs)




                                              10
     The following information demonstrates drug seizures accomplished by the BIA-DDE. These
     numbers were derived from the DDE case investigations logs, statistical reports and subtracted
     from the previous charts depicting the overall Indian country seizures. These figures
     demonstrate an overall decrease of approximately 79% in drugs seized by the BIA-DDE.

    Again marijuana eradication numbers represented 95% of FY2011 total drugs seized. FY12
    recorded an 83% decrease in plants seized due to the aggressive eradication efforts made in the
    Northwest Region of the United States in FYll. Considering DDE's success in reducing
    marijuana cultivation in this region additional operations are being implemented for FY13 in
    other regions of the US.


     Table 9: Percent increase in amount of drugs seized bv DDE onlv by Fiscal Year


.   -~~~~fL~··:ff'
       1. .. .v~i "~~
    ,,;a :.R~ -'f'W
      . ~-(}~~'-'-'<
      •. ~               ~
                             ., .. • ..
             •     1.·


          ~ ·- r~\t
    ···-~ ,;~»=- ~•' 1,w~OJ-~
     ]j
                                       _
                                        aoto J ·. . - . 2~t' \~
                                           '(
                                                                                                        . :iO'ft ".,
                                                                                                 .. 1_;-'-                          ,},·:~l
                                                                                                                                            J2
                                 • · ~ - l~ .." -1-' · , · "2010
     -~ -~J.Qt.:,~ --~' • -: :ey '
                                                '     '>   -··• • • •

                                                           C'bie~ 0d .  'r  Z%
                                                                                               ,~.2011

                                                                                        'Achievea:i. Proli-
                                                                                                               ' %;/~           '     t

-:Drues·&Izea - :~..,,:--.-.~~ ~·' ·-6~r~pbiject;,,:. ~~ ''': "" "- -':~P.ro)Jjo{
                                                                                                     -; __ , •• :l'i '!_!':•'        A clt.ieved
                                                                               - sed. ~ ,;;..~ .
                                                                                    1.
                                                                                                                 ~to                : .. ~0~:.     --.'
     FY 2009,10,
         11, 12
       achieved
                             149,713.47             152,707.73          43,762.88   44,638       90,298          91 ,200                  19,484
         totals
     represented
      in pounds:
       Cocaine
                                 178                   182                105            108         7               7                     20
        Powder
       Cocaine
                                 .38                   .38                 8.1           8.3        .21            .21                     .021
         Crack
          Heroin                 38                    .38                 .08           .08        .01            .01                     .01
       MDMA
      (Ecstasy)                   0                        0               .12           .12        .18            .18                      0

    Meth Crystal                  0                        0               40            41         13              14                      4
MethPowder                       18                    18                  .72           .73         0              0                      .03
 Processed
                                 45                    46                3,384       3,452        2,874           2,902                   3,573
 Marijuana
Prescription
                                 .01                   .01                 .08           .08         9             9.1                     354
Drugs Seized
Other Drugs
                                 .64                   .65                 0             0          .3              .3                     54
   Seized
Marijuana(#
                             149,467                 152,456             40,223     41,027       87,394          88,267                   15,477
Plants = lbs)

it   The preceding information was obtainedfrom the Lotus Notes drug database and DDE case logs.




                                                                            11
 DISCUSSION

 In FY2012 BIA-DDE Agents were involved in the first Racketeering Influenced and Corrupt
 Organization (RICO) investigation to occur in Indian country that resulted in twenty-four
 individuals being indicted. The span of the investigation reached the multiple reservations in
 Minnesota.

 The BIA-DDE conducted an investigation into a Conspiracy to distribute pharmaceutical drugs
 affecting a Tribe in North Carolina. The supply of pills originated in Haiti, were shipped into
 Florida, and then distributed to various locations from there. The number of pills and street
 value of the drugs made this investigation the largest of this type to directly affect Indian country
 to date.

BIA-DDE conducted a successful pharmaceutical "diversion" investigation affecting a Tribe in
Oklahoma. Diversion investigations are a specialized and very sensitive field involving
pharmaceutical manufacturers, distributors, pharmacies, and Doctors. This type of investigation
is so specialized the DEA has a separate branch of investigators for diversion investigations.

The rapidly rising trend in the use of synthetic marijuana in Indian country and the resulting
aftermath of injury and death was quickly addressed by BIA-DDE. Twenty-one synthetic
marijuana cases, which included the distribution of "bath salts", were conducted in Fiscal Year
2012. The affected reservations are located in New York, North Carolina and South Dakota. In
Fiscal Year 2012, the BIA-DDE seized approximately $112,312 in cash, and approximately
$1 ,900 in vehicles and other assets from suspects identified in criminal cases worked on Tribal
Trust and Individual Allotted lands.

The BIA also continues to work with Tribal and Federal partners to address the illegal narcotic
distribution networks along the Southern and Northern Borders. In FY2012, BIA has enhanced
the partnerships between Border Patrol and Tribal law enforcement officials along the Southwest
Border.

The BIA continues to build the Indian Country Intelligence program to provide a solid
intelligence network for tribal, Federal, State and local law enforcement to work collaboratively
on information-sharing related to illegal drug activities or other law violations. The BIA
Intelligence Analyst currently assigned to the El Paso Intelligence Center will continue to assist
tribal and BIA law enforcement by providing intelligence and analytical assistance throughout
the United States. A second Intelligence Analyst assigned to a local DEA Task Force who is
stationed at McAlester, OK has worked closely with ODE agents with phone toll analysis, case
mapping, pen registers, and defendant and conspiracy flow charts and spreadsheets. The BIA
continues to work on expanding this intelligence capacity through partnerships with other federal
and state intelligence programs that will maximize the support ofBIA's overall mission.




                                                 12
MANAGEMENT ASSERTIONS

1. Performance reporting systems are appropriate and applied -
   The DDE continues to experience challenges gathering accurate data using systems
   developed by the BIA IT division or its contractors. Information gathered for this report and
   the subsequent verification process again highlighted the need for an automated data
   collection system. BIA is in the process of implementing a Records Management System for
   all BIA direct service programs.

2. Explanations for not meeting performance targets are reasonable -
   The target for cases worked specifically by the DDE was not met due to refocusing DDE
   agents on drug investigations and providing drug related technical assistance to tribal law
   enforcement programs. As the DDE evolves into a more sophisticated division working
   more complex drug investigations the additional time required to work these types of cases
   will limit the number of cases worked in a fiscal year. However, the overall drug cases
   worked in Indian Country increased in FY2012.

3. Methodology to establish performance targets is reasonable and applied -
   The targets were projected for FY 2012 based upon statistical data reviewed over the past
   two years in addition to the complexity of new drug trends identified within Indian Country.

4. Adequate performance measures exist for al! significant drug control activities-
   The agency has four (4) acceptable performance measures that adequately cover each of the
   decision units. Each measure considers the intended purpose of the NDCP activity.




 {;r Director, Bureau of Indian Affairs
                                                                          ;p/7-m--
                                                                                 Date




                                              13
